OIG Audit Report 09-10
Federal Prison Industries, Inc. Annual Financial Statement - Fiscal Year 2008
Audit Report 09-10
January 2009
Office of the Inspector General
Commentary and Summary
This audit report contains  the Annual Financial Statement of the Federal Prison Industries, Inc. (FPI) for  the fiscal years (FY) ended September 30, 2008, and September 30, 2007.  Under the direction of the Office of the  Inspector General (OIG), KPMG LLP performed the audit, which resulted in an  unqualified opinion on the FY 2008 financial statements.  An unqualified opinion means that the  financial statements present fairly, in all material respects, the financial  position and results of the entity’s operations in conformity with U.S. generally  accepted accounting principles.  For FY 2007,  the FPI also received an unqualified opinion on its financial statements (OIG  Report No. 08-10).
KPMG LLP also  issued reports on internal control over financial reporting, and on compliance and  other matters.  The auditors identified  one significant deficiency in the Independent Auditors’ Report on Internal  Control over Financial Reporting.  The significant  deficiency relates to vulnerabilities identified in the FPI’s financial  management system general controls environment.   Specifically, improvements are needed in the FPI’s access controls, segregation  of duties, and system software general controls.  No instances of non-compliance with laws and  regulations or other matters were identified during the audit.
The OIG reviewed KPMG  LLP’s report and related documentation and made necessary inquires of its  representatives.  Our review, as  differentiated from an audit in accordance with U.S. generally accepted  government auditing standards, was not intended to enable us to express, and we  do not express, an opinion on the FPI’s financial statements, conclusions about  the effectiveness of internal control, conclusions on whether the FPI’s  financial management systems substantially complied with the Federal Financial  Management Integrity Act of 1996, or conclusions on compliance with laws and  regulations.  KPMG LLP is responsible for  the attached auditors’ reports dated November 8, 2008, and the conclusions  expressed in the reports.  However, our  review disclosed no instances where KPMG LLP did not comply, in all material  respects, with U.S.  generally accepted government auditing standards.
Return to OIG Home Page